                                              OFFICE OF JOB CORPS



Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT OF THE CLEVELAND
                                              JOB CORPS CENTER




                                                                 Date Issued:   September 28, 2007
                                                              Report Number:    26-07-003-01-370
                                                       U.S. Department of Labor
BRIEFLY…                                               Office of Inspector General
                                                       Office of Audit

Highlights of Report Number 26-07-003-01-370,          WHAT OIG FOUND
Performance Audit of the Cleveland Job Corps           We concluded that ATSI officials properly reported
Center, to the National Director, Office of Job        student accomplishments, student attendance, and
Corps, dated September 28, 2007.                       other performance data. However, ATSI officials
                                                       did not properly reconcile Public Vouchers they
                                                       submitted for payment with expenses reported on
WHY READ THE REPORT                                    Financial Reports as required by Job Corps’ Policy
Job Corps’ stated mission is to attract eligible       and Requirements Handbook. Public Vouchers
young adults, teach them the skills they need to       exceeded the amounts shown on the financial
become employable and independent, and place           reports by $323,865. As a result, ATSI may have
them in meaningful jobs or further their education.    been overpaid by that amount. We also concluded
To carry out this mission, Job Corps uses              that ATSI officials obtained at least $20,310 in
contractors and other federal agencies to operate      consulting services without Contracting Officer
centers and provide meaningful services to those       approval, and although required, ATSI officials did
young people entrusted to them.                        not maintain a report of the services received. As
                                                       a result, there was no assurance that the services
Our audit of the Cleveland Job Corps Center            were reasonable or benefited the Center
located in Cleveland, Ohio, and operated by a
contractor,    Applied     Technology      Systems,    WHAT OIG RECOMMENDED
Incorporated (ATSI), reported deficiencies in          The OIG recommended that the National Director,
financial operations that resulted in Job Corps        Office of Job Corps, coordinate with the Assistant
paying for services it possibly had not received.      Secretary for Administration and Management to
                                                       develop an oversight process requiring that
                                                       contractors reconcile differences between amounts
WHY OIG CONDUCTED THE AUDIT                            recorded on Public Vouchers and expenses
The audit objectives were to determine whether:        reported on 2110 reports; to train personnel
                                                       monitoring Center financial activities; to develop a
1. ATSI officials complied with laws, regulations,     process to define responsibilities and to monitor
   and contract provisions in its reported             reconciliations of Public Vouchers and financial
   performance measures.                               reports; to request support from ATSI for $323,865
                                                       in payments made in excess of expenses reported
2. ATSI officials complied with laws, regulations,     and for $20,310 in questionable payments for
   and contract provisions in its reported financial   consulting services; to ensure prior contracting
   operations.                                         officer approval is obtained for future consulting
                                                       services; and to seek reimbursements for all
                                                       expenses and consulting services not supported.
READ THE FULL REPORT
To view the report, including the scope,               HOW AUDITEE RESPONDED
methodology, and full agency response, go to:          The National Director, Office of Job Corps, stated
http://www.oig.dol.gov/public/reports/oa/2007/26-      that her office will execute a number of actions to
07-003-01-370.pdf                                      include; establishing a new Financial Management
                                                       working group; the execution or funding of training
                                                       to strenghten the financial management skill set of
                                                       all staff; updating the Regional Standard Operating
                                                       Procedure for monitoring 2110’s and requiring
                                                       interim     approval    for   consulting   services;
                                                       requesting supporting documentation and as
                                                       needed, recover overpayments for consulting
                                                       services not benefiting the Center.
                                                        Performance Audit of the Cleveland Job Corps Center




Table of Contents

                                                                                                                      PAGE

   EXECUTIVE SUMMARY ........................................................................................... 1

   ASSISTANT INSPECTOR GENERAL’S REPORT ................................................... 4

        Finding 1 - ATSI officials did not always follow laws, regulations, and
           contract provisions in reporting the Center’s financial activities............. 5

   EXHIBIT................................................................................................................... 10

        Exhibit A - Monthly differences between the amounts on the Public
          Vouchers and the amounts on the Financial Reports (ETA 2110) .......... 11

   APPENDICES.......................................................................................................... 12

        APPENDIX A Background................................................................................ 13

        APPENDIX B Objectives, Scope, Methodology and Principal Criteria......... 14

        APPENDIX C Acronyms and Abbreviations ................................................... 16

        APPENDIX D Agency Response to Draft Report ........................................... 17




U.S. Department of Labor—Office of Inspector General
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center




Executive Summary
The Office of Inspector General (OIG) conducted a performance audit of the Cleveland
Job Corps Center (Center). The Center was randomly selected for audit, and our audit
was accomplished as a part of the OIG’s ongoing coverage of DOL Job Corps Centers
and their operators. The Center located in Cleveland, Ohio and operated by Applied
Technology Systems, Incorporated (ATSI), has an authorized On-Board Strength of 320
students and an annual operating budget of approximately $9.8 million.

Our audit objectives were designed to answer two questions:

 1. Did ATSI officials comply with laws, regulations, and contract provisions in its
    reported performance measures? (Objective 1)

 2. Did ATSI officials comply with laws, regulations, and contract provisions in its
    reported financial operations? (Objective 2)


Results

We concluded that ATSI officials generally complied with laws, regulations and contract
provisions in the Center’s reported performance measures. Specifically, we found that
ATSI officials properly reported student accomplishments and properly recorded and
reported student attendance as reflected in the Center’s reporting of On-board Strength.
We also concluded that performance data reported by ATSI officials in the Center
Information System (CIS) was properly supported in all material aspects.

However, ATSI officials did not always comply with laws, regulations, and contract
provisions in its reported financial operations for the Center. Specifically, ATSI officials
did not perform proper reconciliations of financial reports, and ATSI officials did not fully
comply with regulatory requirements regarding contract provisions for consulting
services. In addition, neither Job Corps nor staff in the Office of the Assistant Secretary
for Administration and Management (OASAM) provided effective monitoring to ensure
ATSI compliance, which contributed to the breakdown in controls for consulting
services.

ATSI officials did not properly reconcile Public Vouchers (Standard Form 1034) it
submitted for payment with Financial Reports (ETA 2110 Reports) as required by the
Job Corps’ Policy and Requirements Handbook (PRH). Public vouchers we reviewed
exceeded the amounts on the financial reports by $323,865. As a result, ATSI may
have been overpaid by that amount.

Further, ATSI officials obtained $20,310 in consulting services for the Center without the
contracting officer’s approval and did not maintain a report of the services obtained as

U.S. Department of Labor—Office of Inspector General                                        1
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center


required by the contract. As a result, Job Corps had no assurance that the services
were needed or benefited the Center, and we questioned the $20,310 in consulting
services payments.

These deficiencies occurred because the Center lacked adequate controls to ensure
that reconciliations between public vouchers and financial reports were performed and
that consulting services were properly approved and reported, which resulted in
questioned costs totaling $344,175 ($323,865 pus $20,310).


Recommendations

Our report contains six recommendations to the National Director, Office of Job Corps,
requesting coordination with the Assistant Secretary for Administration and
Management to:

   1. Develop a timely oversight process to ensure contractors reconcile public
      vouchers with the expenses reported on the ETA 2110 reports.

   2. Periodically assess the capability of personnel assigned to monitor the
      contractor’s financial activities to ensure the personnel are adequately trained.

   3. Incorporate in the Program Assessment Guide procedures which clearly state
      Contracting Officer and Job Corps Region roles and responsibilities for
      monitoring the Public Voucher/ETA Form 2110 reconciliation process.

   4. Establish effective procedures to ensure that contractors obtain prior approval
      from the contracting officer for consulting services and that contractors maintain
      a report on consulting services containing the information required by the
      contract.

   5. Request ATSI officials to provide support for the $323,865 public vouchers
      submitted in excess of those reported and $20,310 questionable payments for
      consulting services and based on review of support provided, recover any
      amount determined to be unreasonable.

   6. Review all consulting services obtained by ATSI for the Center and request
      reimbursement for services that did not benefit the Center.


Agency Response

The National Director, Office of Job Corps, responded that the Office of Job Corps will
establish a new Financial Management workgroup that is scheduled to meet in early
2008 to review current policies and procedures and to identify areas that need revision.
Also, the National Office of Job Corps has recognized the need to strengthen the

U.S. Department of Labor—Office of Inspector General                                       2
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center


financial management skill set for all staff and will continue to fund training for all
personnel assigned to monitor the contractor’s financial activities. In addition, the Office
of Job Corps agrees with the auditors that enhanced written procedures would benefit
the Job Corps program. Further, the Office of Job Corps will update the Regional
Standard Operating Procedures Manual to include a process that requires the Job
Corps Contracting Officer’s Technical Representative (COTR) to both provide interim
approval for consulting services and ensure that contractors maintain reports on
consulting services, as required by their contract. Lastly, the Office of Job Corps will
request supporting documents from ATSI officials for both the $323,865 in public
vouchers submitted in excess of those reported and $20,310 in questionable payments
for consulting services and seek recovery for any amounts not deemed reasonable or
that did not benefit the Center.

The National Director, Office of Job Corps, entire response is included at Appendix D.

OIG Conclusion

Based on the National Director’s response, we consider all six of our recommendations
as resolved and open. To close these recommendations, the Office of Job Corps needs
to provide documentation showing the corrective actions have been completed.




U.S. Department of Labor—Office of Inspector General                                       3
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center


U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC 20210




                         Assistant Inspector General’s Report


Esther R. Johnson
National Director
Office of Job Corps
U. S. Department of Labor
200 Constitution Avenue, N.W.
Washington, DC 20210


The Office of Inspector General (OIG) conducted a performance audit of the Cleveland
Job Corps Center (Center). The Center was randomly selected for audit, and our audit
was accomplished as a part of the OIG’s ongoing coverage of DOL Job Corps Centers
and their operators. The Center located in Cleveland, Ohio and operated by Applied
Technology Systems, Incorporated (ATSI), has an authorized On-Board Strength of 320
students and an annual operating budget of approximately $9.8 million.

Our audit objectives were to answer two questions:

   1. Did ATSI officials comply with laws, regulations, and contract provisions in its
      reported performance measures? (Objective 1)

   2. Did ATSI officials comply with laws, regulations, and contract provisions in its
      reported financial operations? (Objective 2)

Our audit covered the Center’s performance and financial reporting for the period July 1,
2004 through August 31, 2006, except for consulting services. For consulting services,
our audit covered the period January 1, 2004 through December 31, 2005.

We conducted the audit in accordance with the Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. See
Appendix A for background information on this audit and Appendix B for the audit
objectives, scope, methodology, and criteria.

Objective 1 – Did ATSI officials comply with laws, regulations, and contract provisions
in its reported performance measures?

We found that ATSI officials generally complied with laws, regulations, and contract
provisions in the Center’s reported performance measures. Specifically, we found that
ATSI officials properly reported student accomplishments and properly recorded and
reported student attendance as reflected in the Center’s reporting of On-board Strength.

U.S. Department of Labor—Office of Inspector General                                       4
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center


We also found that performance data reported by ATSI officials in the Center
Information System was properly supported in all material aspects.

Objective 2 - Did ATSI officials comply with laws, regulations, and contract provisions in
its reported financial operations?

Finding 1 - ATSI officials did not always follow laws, regulations, and contract
provisions in reporting the Center’s financial activities

ATSI officials did not always follow laws, regulations, and contract provisions in
reporting the Center’s financial activities. Specifically, ATSI officials did not perform
proper reconciliations of financial reports, and ATSI officials did not fully comply with
regulatory requirements regarding contract provisions for consulting services. In
addition, neither Job Corps nor staff in the Office of the Assistant Secretary for
Administration and Management (OASAM) provided effective monitoring to ensure ATSI
compliance, which contributed to the breakdown in controls for consulting services.

We found that ATSI officials did not:

   ¾ Properly reconcile Public Vouchers (Standard Form 1034) the Center submitted
     for payment with Financial Reports (ETA 2110 Reports) as required by the PRH.
     The vouchers did not agree with the financial reports for 22 of the 26 months we
     reviewed and cumulatively, exceeded reported expenses by $323,865. The lack
     of an adequate reconciliation brings into question whether Job Corps paid
     $323,865 in expenses that were allowable costs or whether those expenses
     provided a benefit to the Center.

   ¾ Obtain Job Corps approval prior to entering into consulting service agreements
     for the Center. Also, ATSI officials did not maintain a report of the consulting
     services obtained as required by the contract. As a result, there was no
     assurance that consulting services obtained by ATSI were reasonable and
     benefited the Center. The lack of an adequate approval and reporting process
     brings into question the appropriateness of the $20,310 in payments to those
     consultants.

These deficiencies occurred because the Center lacked adequate controls to ensure
that reconciliations between Public Vouchers (Standard Form 1034) and Financial
Reports (ETA 2110 Reports) were performed and that consulting services were properly
approved and reported, which resulted in questioned costs totaling $344,175 ($323.865
plus $20,310).

Public Vouchers Did Not Agree with Amounts on Financial Reports

We found that for the period July 2004 through August 2006, the amounts on the Public
Vouchers did not agree with the amounts on the Financial Reports for 22 of the 26
months reviewed. Cumulatively, the amounts on the voucher exceeded the amounts on

U.S. Department of Labor—Office of Inspector General                                       5
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center


the financial report by $323,865, indicating that ATSI was reimbursed for unsupported
payments for most of the 26-month period. (See Exhibit A for a schedule of monthly
differences between the amounts on the Public Vouchers and the amounts on the
Financial Reports.)

Job Corps’ Policy and Requirements Handbook (PRH), Chapter 5, Appendix 502, states
in-part “that vouchers submitted for payment by contractors must include only those
amounts actually paid by the Job Corps center and amounts earned by and due to the
contactor (indirect administrative expenses and fees).” The handbook further states
“that the amounts reported as Vouchered Reimbursable Expenses on the Financial
Reports must agree with the month-end vouchers.”

We discussed the differences with ATSI, Job Corps, and OASAM representatives and
concluded that none of the following three activities placed sufficient emphasis on
ensuring that a proper reconciliation was done.

   1. ATSI representatives provided two separate explanations, neither of which was
      satisfactory. ATSI representatives first told us that during the period chosen for
      audit, ATSI was in partnership with another contractor—Management and
      Training Corporation (MTC)—and that ATSI did not have all the expenses
      incurred by MTC. However, this did not explain why ATSI officials billed their
      vouchers for more than what was reported as expenses on the ETA 2110’s.
      Further, the partnership was dissolved in February 2005, yet significant
      differences continued to occur until at least April 2006. ATSI officials then said
      that while the cumulative amounts showed differences, the vouchers reconciled
      with the ETA 2110’s on a monthly basis. However, we rechecked the monthly
      amounts and confirmed that the monthly amounts did not reconcile.

   2. The Job Corps Program Manager for the Center told us that neither Job Corps
      nor OASAM representatives provided training that was sufficient for monitoring
      costs and other financial-related activities. Therefore, the Job Corps Program
      Manager for the Center had to rely on the written criteria. Accordingly, we
      reviewed Job Corps’ Program Assessment Guide and concluded the guide did
      not address monthly reconciliations.

   3. The OASAM contract specialist for the Center contract told us that the contractor
      should be able to explain the differences.

Job Corps and OASAM representatives have an ongoing oversight responsibility to
ensure contractors properly report costs and reconcile every public voucher with costs
shown on the ETA 2110. Moreover, this oversight is the only viable internal control to
protect the US Government from overpaying for Center costs. If oversight responsibility
and controls had worked as Job Corps designed them, ATSI officials would have
already been required to return $323,865 to the Government. Lastly, proper
reconciliations must be performed timely because monies overpaid, if recovered too



U.S. Department of Labor—Office of Inspector General                                       6
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center


late, may not be used by the Job Corps Program, but instead must be deposited into the
US Treasury General Collection Account.

The Need for Consulting Services Not Adequately Supported

ATSI officials did not comply with either the PRH or with contract requirements in
obtaining services from consultants. The PRH (Chapter 5, Appendix 502) states that
written approval must be obtained from the contracting officer before a consultant is
hired. In addition, paragraph H.21 (C) of the Center’s contract requires ATSI officials to
maintain a written report of the results of all consulting services charged to the contract.
The report must include as a minimum:

       -   The consultant’s name, dates, hours, and amounts charged to the contract

       -   The names of the Contractor’s staff who provided the services

       -   The results of the subject matter concluded by the consultation

ATSI’s General Ledger included 83 payments, totaling $122,073 made to consultants
for services to the Center for the period January 1, 2004 through December 31, 2005, (a
schedule of the 83 payments was provided under separate cover). We reviewed 8
payments totaling $20,310 that we selected at random to determine if ATSI officials
obtained contracting officer approval prior to procuring the services and whether they
maintained a report of the services as required by the contract. ATSI officials did not
obtain prior approval for the services, nor did ATSI officials maintain the required report
of the services performed. Thus, there was no assurance that services obtained were
reasonable and benefited the Center. A schedule of the 8 tested payments, including
the purpose of the services if available from the description on the invoice or other
documentation, was provided under separate cover.

ATSI officials told us they believed that only consulting services that exceeded $25,000
needed to be approved in advance. However, the ATSI officials could not provide any
documentation citing this threshold. The PRH and the contract are clear specifying that
all consulting services must be approved in advance. ATSI officials also stated that
neither Job Corps nor OASAM representatives had ever requested the consulting
report, which was required by the contract. Therefore, the ATSI officials did not
maintain it.

While ATSI officials are directly responsible for adhering to the PRH and their contract,
Job Corps and OASAM representatives did not monitor ATSI official’s compliance with
the contract requirements to ensure they obtained prior approval from the contracting
officer for consulting services and that the report on consulting services containing the
information required by the contract be maintained. Timely monitoring of the contract
was and remains essential to ensure that Job Corps only pays for services that are
necessary to support the Center.



U.S. Department of Labor—Office of Inspector General                                        7
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center


Recommendations

We recommend the National Director, Office of Job Corps, to coordinate with the
Assistant Secretary for Administrative Services and Management to:

     1. Coordinate to develop a timely oversight process to ensure that contractors
        reconcile public vouchers with the expenses reported on the ETA 2110 reports
        to ensure they agree. Instruct Contracting Offices not to pay any month-end
        vouchers that are not properly reconciled with the expenses reported on the
        ETA 2110 reports.

     2. Periodically assess the capability of personnel assigned to monitor the
        contractor’s financial activities and ensure the personnel are adequately
        trained.

     3. Incorporate in the Program Assessment Guide procedures which clearly state
        the Contracting Officer’s and Job Corps Regional staff’s roles and
        responsibilities for monitoring the Public Voucher/ETA Form 2110 reconciliation
        process and reconciliation procedures. The procedures should include a
        section on when to initiate collection actions.

     4. Establish effective procedures to ensure contractors comply with the PRH and
        with contract requirements regarding consulting services. Specifically,
        coordinate to develop a timely oversight process to ensure that contractors
        obtain prior approval from the contracting officer for consulting services and
        that contractors maintain the report on consulting services containing the
        information required by the contract; establish a procedure to make timely
        reviews of the report for accuracy; and require contractors to reimburse
        amounts paid for the consulting services that did not benefit the Job Corps
        Center.

     5. Direct the Contracting Officer for the Center contract to initiate expeditious
        action to request ATSI officials to provide support for the $323,865 public
        vouchers submitted in excess of those reported and $20,310 in questionable
        payments for consulting services. Based on review of support provided, the
        Contracting Officer should recover any amount determined to be unreasonable.

     6. Direct the Contracting Officer, in conjunction with the Chicago Job Corps
        Region, to review the 83 payments for consulting services made by ATSI
        officials for the Center (the listing of the payments was provided under separate
        cover); to determine if the services were actually obtained and were a benefit to
        the Center; and to recover from the contractor, timely reimbursements for any
        services that did not benefit the Center.




U.S. Department of Labor—Office of Inspector General                                       8
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center


Agency Response

The National Director, Office of Job Corps, responded that the Office of Job Corps will
establish a new Financial Management workgroup that is scheduled to meet in early
2008 to review current policies and procedures and to identify areas that need revision.
Also, the National Office of Job Corps has recognized the need to strengthen the
financial management skill set for all staff and will continue to fund training for all
personnel assigned to monitor the contractor’s financial activities. In addition, the Office
of Job Corps agrees with the auditors that enhanced written procedures would benefit
the Job Corps program. Further, the Office of Job Corps will update the Regional
Standard Operating Procedures Manual to include a process that requires the Job
Corps Contracting Officer’s Technical Representative (COTR) to both provide interim
approval for consulting services and ensure that contractors maintain reports on
consulting services, as required by their contract. Lastly, the Office of Job Corps will
request supporting documents from ATSI officials for both the $323,865 in public
vouchers submitted in excess of those reported and $20,310 in questionable payments
for consulting services and seek recovery for any amounts not deemed reasonable or
that did not benefit the Center.


OIG Conclusion

Based on the National Director’s response, we consider all six of our recommendations
as resolved and open. To close these recommendations, the Office of Job Corps needs
to provide documentation showing the corrective actions have been completed.




Elliot P. Lewis
July 13, 2007




U.S. Department of Labor—Office of Inspector General                                       9
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center




Exhibit




U.S. Department of Labor—Office of Inspector General                                      10
Report Number: 26-07-003-01-370
                                                                            Performance Audit of the Cleveland Job Corps Center




                                                                                                                                              EXHIBIT
Exhibit A - Monthly differences between the amounts on the Public Vouchers and the amounts on the Financial Reports (ETA 2110)

                Monthly differences between the amounts on the Public Vouchers
                     and the amounts on the Financial Reports (ETA 2110)

                                                                                                   ETA 2110
               Voucher Period                                Voucher Amount                        Amount                        Difference

               Contract 5-JC-977-39

               Jul-04                                        $674,435                              $952,470                      -$278,035
               Aug-04                                        $674,435                              $969,369                      -$294,934
               Sep-04                                        $658,767                              $797,127                      -$138,360
               Oct-04                                        $1,086,704                            $753,740                      $332,964
               Nov-04                                        $901,709                              $781,596                      $120,113
               Dec-04                                        $1,194,068                            $760,592                      $433,476
               Jan-05                                        $750,945                              $915,049                      -$164,104
               Feb-05                                        $997,729                              $812,502                      $185,227
               Mar-05                                        $533,365                              $732,987                      -$199,622
               Apr-05                                        $670,817                              $801,735                      -$130,918
               May-05                                        $776,959                              $743,054                      $33,905
               Jun-05                                        $779,825                              $834,832                      -$55,007
               Jul-05                                        $960,975                              $725,430                      $235,545

                                                             $10,660,733                           $10,580,483                   $80,250

               Contract J05RA00005

               Aug-05                                        $627,738                              $670,569                      -$42,831
               Sep-05                                        $670,606                              $651,037                      $19,569
               Oct-05                                        $876,651                              $853,384                      $23,267
               Nov-05                                        $961,097                              $836,614                      $124,483
               Dec-05                                        $926,490                              $716,685                      $209,805
               Jan-06                                        $785,769                              $964,976                      -$179,207
               Feb-06                                        $911,327                              $911,327                      $0
               Mar/Apr 06                                    $1,755,044                            $1,666,513                    $88,531
               May-06                                        $759,267                              $759,268                      -$1
               Jun-06                                        $931,139                              $931,141                      -$2
               Jul-06                                        $625,170                              $625,170                      $0
               Aug-06                                        $842,799                              $842,799                      $0

                                                             $10,673,098                           $10,429,483                   $243,615

               Contract #: 5-JC-977-39                       $10,660,733                           $10,580,483                   $80,250
               Contract #: J05RA00005                        $10,673,098                           $10,429,483                   $243,615
               Total for Period                              $21,333,831                           $21,009,966                   $323,865




U.S. Department of Labor—Office of Inspector General                                                                                               11
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center




Appendices




U.S. Department of Labor—Office of Inspector General                                      12
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center




                                                                              APPENDIX A
Background
Job Corps is administered by the Department of Labor, Office of the Secretary, Office of
Job Corps, under the leadership of the National Director, who is supported by a National
Office staff and a field network of Regional Offices of Job Corps.

The purpose of Job Corps is to assist young people who need and can benefit from a
comprehensive program, operated primarily in the residential setting of a Job Corps
Center (JCC), to become more responsible, employable, and productive citizens.

Job Corps' mission is to attract eligible young adults, teach them the skills they need to
become employable and independent, and place them in meaningful jobs or further
education.

Education, training, and support services are provided to students at Job Corps center
campuses located throughout the United States and Puerto Rico. Job Corps Centers
are operated for the U.S. Department of Labor by private companies through
competitive contracting processes, and by other Federal Agencies through inter-agency
agreements.

The WIA legislation authorizing Job Corps requires the Secretary of Labor to provide a
level of review of contractors and service providers over a 3-year period. The Code of
Federal Regulations (CFR) states all Job Corps centers must be reviewed over the 3-
year period. The OIG has taken the lead in providing audit coverage of the operators
and service providers for the Secretary and is using a statistical selection process of
centers to meet the intent of the CFR.

OASAM is responsible for the overall implementation of the Department of Labor’s
procurement program. OASAM provides contracting support to Job Corps and
coordinates with Job Corps to ensure contractors comply with the provisions of the
contracts.




U.S. Department of Labor—Office of Inspector General                                      13
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center




                                                                              APPENDIX B
Objectives, Scope, Methodology and Principal Criteria
Objectives
Our audit objectives were to determine whether the contractor complied with laws,
regulations and contract requirements in its reported performance measures and
financial operations.

Scope
Our audit covered the performance and financial reporting at the Cleveland Job Corps
Center (JCC). Our testing was performed at the Cleveland JCC and at Applied
Technology Systems, Inc. (ATSI), headquarters located in Cleveland, Ohio.

To accomplish our audit, we examined reported performance and financial activity for
periods from July 1, 2004 through August 31, 2006. For consulting services, we
examined activity during the period January 1, 2004 through December 31, 2005. We
examined the following: student accountability (by examining absent without leave
(AWOL) policy and student leave deficiencies); student accomplishments for the
performance measures of High School Diplomas/ General Educational Developments
(HSD/GED), Vocational Training Completions; financial reporting of about $21 million in
center expenses recorded on Form 2110; and internal controls applicable to center
operations.

During our audit, we used performance and attendance data from the Center
Information System (CIS). We examined student folders to verify that the Center’s
documentation supported performance and attendance data inputted into the CIS by
Center personnel. Financial data used in our audit were obtained from the general
ledger of ATSI. The reliability of the ATSI computerized data was determined by
comparing data in the general ledger to the 2110 data maintained by the Job Corps
Data Center and performing analysis of selected expenditures and obtaining supporting
documentation for those expenditures.

We considered the internal control elements of control environment, risk assessment,
control activities, information and communication, and monitoring during our planning
and substantive audit phases.

Our audit was performed in accordance with Generally Accepted Government Auditing
Standards for performance audits.

Methodology

To accomplish our audit objectives, we reviewed applicable criteria and compared the
requirements to the reported performance and financial results.




U.S. Department of Labor—Office of Inspector General                                      14
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center


We used non-statistical sampling to examine the performance measures of HSD/GED
and Vocational Training Completions. At the Center, for PY 2005, we judgmentally
selected 56 of 195 students for testing. For two months (July and August) of PY 2006,
we examined 100 percent of the HSD/GED and Vocational Training Completions
reported by the Center.

We tested whether the Center’s leave policy resulted in reasonable leave and we used
the sample selected for the HSD/GED to perform our testing. We used the assumption
that leave would be considered reasonable if the leave was properly supported in
accordance with the PRH.

In order to test students in AWOL status, we analyzed morning reports (student
accountability documents) for the period July 1, 2004 through August 31, 2006, which
were used by the ATSI officials to monitor the Center’s operations. We reviewed each
report to identify those students who were shown on the report in violation of the 6-and
12-day AWOL policy without being separated as required by the PRH.

For all three performance measures, we examined student folders to verify
documentation supported student accomplishments recorded in the CIS.

Financial activity was audited using a combination of analytical procedures, staff and
management interviews, and document examinations. We traced selected costs
through the operator’s general ledger and examined vouchers/supporting
documentation to authenticate the recorded transactions.

In our internal control analysis, we relied on our assessment of the control environment
of ATSI management and Center management to determine the reliance we would
place on internal control. Based on that assessment, we decided to rely on analytical
and document examination using substantive audit procedures rather than testing of
controls.

Principal Criteria
We used the following criteria to perform this audit:

   •   Federal Acquisition Regulation
   •   Job Corps Policy and Requirements Handbook




U.S. Department of Labor—Office of Inspector General                                      15
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center




                                                                              APPENDIX C
Acronyms and Abbreviations

ATSI                                       Applied Technology Systems, Incorporated

CFR                                        Code of Federal Regulations

CIS                                        Center Information System

COTR                                       Contracting Officer’s Technical Representative

FAR                                        Federal Acquisition Regulation

HSD/GED                                    High School Diplomas/ General Educational
                                           Developments

MTC                                        Management and Training Corporation

OA                                         Office of Audit

OASAM                                      Office of the Assistant Secretary for
                                           Administration and Management

OIG                                        Office of Inspector General

PRH                                        Policy and Requirements Handbook

PY                                         Program Year

WIA                                        Workforce Investment Act




U.S. Department of Labor—Office of Inspector General                                      16
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center




                                                                              APPENDIX D
Agency Response to Draft Report




U.S. Department of Labor—Office of Inspector General                                      17
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center




U.S. Department of Labor—Office of Inspector General                                      18
Report Number: 26-07-003-01-370
                                          Performance Audit of the Cleveland Job Corps Center




U.S. Department of Labor—Office of Inspector General                                      19
Report Number: 26-07-003-01-370
